WAIVER
SUPREME COURT OF THE UNITED STATES
No. 20-1767
Sarasota Wine Market, LLC, et al., Petitioners,
v.
Eric S. Schmitt, Attorney General of Missouri, et al., Respondents.
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of
certiorari unless one is requested by the Court.
Please enter my appearance as Counsel of Record for Respondents Eric S.
Schmitt, Dorothy Taylor and Michael L. Parson.
I certify that I am a member of the Bar of the Supreme Court of the United
States.
Signature:
Date:

July 1, 2021

Name:

D. John Sauer, Solicitor General
Office of the Attorney General
Supreme Court Building
P.O. Box 899
Jefferson City, MO 65102-0899
(573) 751-3321

A copy of this form has been served via U.S. Mail:
James Alexander Tanford
Epstein Cohen Seif & Porter LLP
50 South Meridian Street, Suite 505
Indianapolis, IN 46204

